June 29, 2012

TO:             Peter Budetti
                Deputy Administrator and Director
                Center for Program Integrity
                Centers for Medicare & Medicaid Services

                Deborah Taylor
                Director and Chief Financial Officer
                Office of Financial Management
                Centers for Medicare & Medicaid Services


FROM:           /Brian P. Ritchie/
                Assistant Inspector General for the
                  Centers for Medicare & Medicaid Audits


SUBJECT:        Medicare Compliance Reviews for Calendar Years 2009 and 2010: Palmetto
                General Hospital (A-04-11-07025) and West Florida Hospital (A-04-11-08010)


Attached, for your information are advance copies of two of our final reports for hospital
compliance reviews. We will issue these reports to Palmetto General Hospital and West Florida
Hospital within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Lori S. Pilcher, Regional
Inspector General for Audit Services, Region IV, at (404) 562-7750 or through email at
Lori.Pilcher@oig.hhs.gov.


Attachment


cc:    Daniel Converse
       Office of Strategic Operations and Regulatory Affairs
       Centers for Medicare & Medicaid Services
                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
July 5, 2012

Report Number: A-04-11-07025

Ms. Melissa L. Paper
Hospital Compliance and Privacy Officer
Palmetto General Hospital
2001 West 68th Street
Hialeah, FL 33016

Dear Ms. Paper:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Palmetto General Hospital
for Calendar Years 2009 and 2010. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Denise R. Novak, Audit Manager, at (305) 536-5309, extension 10, or through email at
Denise.Novak@oig.hhs.gov. Please refer to report number A-04-11-07025 in all
correspondence.
                                           Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Melissa L. Paper


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
PALMETTO GENERAL HOSPITAL FOR
 CALENDAR YEARS 2009 AND 2010




                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-04-11-07025
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Palmetto General Hospital (the Hospital) is a 360-bed acute care hospital located in Hialeah,
Florida. Medicare paid the Hospital approximately $125 million for 17,957 inpatient and
23,119 outpatient claims for services provided to beneficiaries during calendar years (CY) 2009
and 2010 based on CMS’s National Claims History data.

Our audit covered $4,236,548 in Medicare payments to the Hospital for 188 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2009 and 2010 and consisted of 170 inpatient and 18 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 173 of the 188 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare

                                                 i
billing requirements for the remaining 15 claims, resulting in overpayments totaling $124,566 for
CYs 2009 and 2010. Specifically, 14 inpatient claims had billing errors, resulting in
overpayments totaling $123,799, and 1 outpatient claim had a billing error, resulting in an
overpayment of $767. Overpayments occurred primarily because the Hospital did not have
adequate controls to prevent incorrect billing of Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $124,566 in overpayments and

   •   strengthen controls to ensure full compliance with Medicare billing requirements.

PALMETTO GENERAL HOSPITAL COMMENTS

In written comments on our draft report, the Hospital agreed with our findings and described
actions that it planned to take in response to our recommendations. The Hospital’s comments are
included in their entirety as the Appendix.




                                               ii
                                                      TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION....................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Palmetto General Hospital .............................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................4

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Inpatient Short Stays ......................................................................................................5
          Inpatient Transfers .........................................................................................................5
          Inpatient Hospital-Acquired Conditions and Present on Admission
            Indicator Reporting ....................................................................................................5
          Inpatient Claims Paid in Excess of Charges ................................................................. 6
          Inpatient Claims Billed With High Severity Level Diagnosis-Related Group Codes .. 6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................6
          Outpatient Surgeries With Billed Units Greater Than One ...........................................6

      RECOMMENDATIONS .......................................................................................................7

      PALMETTO GENERAL HOSPITAL COMMENTS...........................................................7

APPENDIX

      PALMETTO GENERAL HOSPITAL COMMENTS




                                                                     iii
                                               INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS was effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 3 All services and items within an APC
group are comparable clinically and require comparable resources.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. At the time of our fieldwork, most, but not all, of the MACs were
fully operational; for jurisdictions where the MACs were not fully operational, the fiscal intermediaries and carriers
continued to process claims. For purposes of this report, the term “Medicare contractor” means the fiscal
intermediary, carrier, or MAC, whichever was applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                          1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient short stays,

    •   inpatient transfers,

    •   inpatient claims with payments greater than $150,000,

    •   inpatient hospital-acquired conditions and “present on admission” 4 indicator reporting,

    •   inpatient claims paid in excess of charges,

    •   inpatient psychiatric facility emergency department adjustments,

    •   inpatient psychiatric facility interrupted stays,

    •   inpatient claims billed with high severity level DRG codes,

    •   outpatient surgeries billed with units greater than one,

    •   outpatient manufacturer credits for replaced medical devices, and

    •   outpatient claims with payments greater than $25,000.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the


4
 “Present on admission” refers to diagnoses that are present at the time the order for inpatient admission occurs.
Conditions that develop during an outpatient encounter, including emergency department, observation, or outpatient
surgery, are also considered present on admission. Acute care hospitals are required to complete the present on
admission indicator field on the Medicare inpatient claim for every diagnosis billed.

                                                        2
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Palmetto General Hospital

Palmetto General Hospital (the Hospital) is a 360-bed acute care hospital located in Hialeah,
Florida. Medicare paid the Hospital approximately $125 million for 17,957 inpatient and
23,119 outpatient claims for services provided to beneficiaries during calendar years (CY) 2009
and 2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $4,236,548 in Medicare payments to the Hospital for 188 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2009 and 2010 and consisted of 170 inpatient and 18 outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
used medical review on a limited selection of sampled claims to determine whether the services
were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during September and October 2011.

                                                 3
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s National
       Claims History file for CYs 2009 and 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 188 claims (170 inpatient and 18 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed medical record documentation that the Hospital provided to support the
       sampled claims;

   •   requested that the Hospital conduct its own review of the selected sampled claims to
       determine whether the services were billed correctly;

   •   utilized Medicare contractor medical review staff to determine whether a limited
       selection of sampled claims met medical necessity requirements;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 173 of the 188 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 15 claims, resulting in overpayments totaling $124,566 for
CYs 2009 and 2010. Specifically, 14 inpatient claims had billing errors, resulting in

                                                4
overpayments totaling $123,799, and 1 outpatient claim had a billing error, resulting in an
overpayment of $767. Overpayments occurred primarily because the Hospital did not have
adequate controls to prevent incorrect billing of Medicare claims.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 14 of 170 sampled inpatient claims. These errors
resulted in overpayments totaling $123,799.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 5 of the 80 sampled claims for inpatient short stays, the Hospital incorrectly billed Medicare
for inpatient claims that it should have billed as outpatient or outpatient with observation
services. The Hospital attributed the incorrect admissions to human error when applying the
inpatient admission criteria. As a result of these errors, the Hospital received overpayments
totaling $39,785.

Inpatient Transfers

Federal regulations (42 CFR § 412.4(c)) state that a discharge of a hospital inpatient is
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to an inpatient rehabilitation facility. A hospital that transfers an
inpatient under the above circumstance is paid a graduated per diem rate for each day of the
patient’s stay in that hospital, not to exceed the full DRG payment that would have been paid if
the patient had been discharged to another setting (42 CFR § 412.4(f)).

For 1 of the 14 sampled claims for inpatient transfers, the Hospital incorrectly billed Medicare
for a patient discharge that it should have billed as a transfer. For this claim, it should have
coded the discharge status as a transfer to an inpatient rehabilitation facility. Instead, it
incorrectly coded the discharge status as if the patient had left against medical advice; thus the
Hospital should have received the per diem payment instead of the full DRG. The Hospital
stated that this incorrect billing occurred because of human error. As a result of this error, the
Hospital received an overpayment of $6,066.

Inpatient Hospital-Acquired Conditions and Present on Admission Indicator Reporting

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For one of the five sampled claims for inpatient hospital-acquired conditions and present on
admission indicator reporting, the Hospital billed Medicare with an incorrect DRG code. The


                                                 5
Hospital stated that this error occurred because of human error. As a result of this error, the
Hospital received an overpayment of $3,398.

Inpatient Claims Paid in Excess of Charges

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 3 of the 20 sampled inpatient claims paid in excess of charges, the Hospital billed Medicare
with incorrect DRG codes. For one claim, the Hospital coded and billed for a procedure that was
cancelled. For the other two claims, the Hospital billed Medicare based on a DRG code that was
supported by the physician’s written diagnosis in the patient’s medical records. However, after
further review, the patient’s clinical documentation did not support the physician’s written
diagnosis. These errors occurred because of human error, and the Hospital’s coders relied on the
physician’s written diagnosis within the patient’s medical records. As a result of these errors, the
Hospital received overpayments totaling $20,775.

Inpatient Claims Billed With High Severity Level Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 4 of the 40 sampled inpatient claims billed with high severity level DRG codes, the Hospital
billed Medicare with incorrect DRG codes. For one claim, the coder coded a particular diagnosis
that was later ruled out upon discharge. For the other three claims, the Hospital billed Medicare
based on a DRG code that was supported by the physician’s written diagnosis in the patient’s
medical records. However, after further review, the patient’s clinical documentation did not
support the physician’s written diagnosis. These errors occurred because the coder did not re-
review the patient’s account when the discharge summary became available, and the coder relied
on the physician’s written diagnosis within the patient’s medical records. As a result, the
Hospital received overpayments totaling $53,775.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 1 of 18 sampled outpatient claims, which resulted in
an overpayment totaling $767.

Outpatient Surgeries With Billed Units Greater Than One

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 4, section 20.4, of the
Manual states: “The definition of service units … is the number of times the service or
procedure being reported was performed.”



                                                 6
For the only sampled outpatient claim for outpatient surgeries with billed units greater than one,
the Hospital submitted the claim to Medicare with an incorrect number of surgical units of
service performed. The Hospital stated that the incorrect units were billed due to human error.
As a result of this error, the Hospital received an overpayment totaling $767.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $124,566 in overpayments and

   •   strengthen controls to ensure full compliance with Medicare billing requirements.

PALMETTO GENERAL HOSPITAL COMMENTS

In written comments on our draft report, the Hospital agreed with our findings and described
actions that it planned to take in response to our recommendations. The Hospital’s comments are
included in their entirety as the Appendix.




                                                 7
APPENDIX
                              APPENDIX: PALMETTO GENERAL HOSPITAL COMMENTS
	
                                                                                                           Page 1 of 14

                PALMETTO
            I   General Hospital
                Patient Centered Care

            2001 Wesl68'n SI....,
            Hialean, FL 33016
            T.1305.8235000




            May 23,2012

            Lori S, Pilcher
            Regional Inspector General for Audit Services
            U.s. Department of Health and Human Services
            Office of Inspector General
            Office of Audit Services, Region IV
            61 Forsyth Street, SW, Suite 3T41
            Atlanta, GA 30303

            Dear Ms. Pilcher:

            Palmetto General Hospital ("Hospital") has received the draft report provided by the United States
            Department of Health and Human Services, Office of Inspector General ("OIG") entitled Medicare
            Compliance Review of Palmetto General Hospital for Calendar Years 2009 and 2010 ("OIG Medicare
            Compliance Review"). The Hospital is in general agreement with the stated findings and appreciates this
            opportunity to respond to the OIG Medicare Compliance Review.

            As the OIG Medicare Compliance Review indicates, the OIG originally selected for review certain
            inpatient and outpatient claims submitted by the Hospital for dates of service within calendar years
            2009 and 2010, ultimately covering eleven (11) audit areas. In total, 188 claims were reviewed,
            consisting of 170 inpatient claims and 18 outpatient claims. The Hospital understands that the claims
            were selected as a judgmentally focused (non-statistically significant) sample because such claims were
            potentially at risk for billing errors. Prior to the audit, the Hospital received $4,236,548.05 in Medicare
            payments for the 188 claims reviewed. Based on the claim review, the OIG auditors concluded that 15
            of the 188 claims reviewed require claim corrections, that when re-processed, will cause the Hospital to
            have received $124,566.00 in overpayments, resulting in a payment error rate of 2.94%.

            OIG Findings, Recommendations & Hospital Responses


            Inpatient Short Stays

            OIG Findings and Recommendations:

            Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or services
            that "are not reasonable and necessary for the diagnosis or treatment of illness or injury or to improve




3363-1003
                                                                                               Page 2 of 14


the functioning of a malformed body member." For 5 of the 80 sampled claims for inpatient short stays,
the Hospital incorrectly billed Medicare for inpatient claims that it should have billed as outpatient or
outpatient with observation services. The Hospital attributed the incorrect admissions to a human error
when applying the inpatient admission criteria. As a result of these errors, the Hospital received
overpayments totaling $39,785.00.

Hospital Response:

At the time the services were rendered, the Hospital had the following controls in place:

    1. 	 The Hospital Case Managers use McKesson InterQual® clinical criteria to help determine if the
         patient is appropriate for inpatient or outpatient. InterQual® is an evidence based clinical
         criteria set that evaluates the severity of the patient's illness along with the treatment plan to
         help determine the appropriate level of care based on the patient's clinical needs. When there is
         a lack of concordance between the criteria met and the level of care ordered by the physician,
         the Case Manager submits the case to the Physician Advisor for a Secondary Physician Review.
    2. 	 Secondary Physician Review - the Physician Advisor reviews cases and follows up with the
         attending physician to discuss the medical reasons for the patient status and level of care when
         what has been ordered by the attending physician does not meet InterQual® criteria.
    3. 	 InterQual® Education-This mandatory training is required for aII RN Case Managers upon hire
         and annually, thereafter. The education process is not considered to be complete until the Case
         Manager passes a final competency exam.
    4. 	 Medical Necessity Report -The Hospital has a process in place to pull a report of cases with
         InterQual admission reviews that are "not met" or "not complete" on a daily basis prior to
         billing. The report process includes a review by the Hospital Director of Case Management and
         the Physician Advisor to confirm whether the patient met criteria for Outpatient Observation or
         Inpatient admission.
    5. 	 Physician Education-The Director of Case Management provided education to the Hospital's
         physician staff regarding patient status and CMS regulations.

During 2011, prior to this OIG Medicare Compliance Review, the Hospital had conducted an internal
assessment of the Hospital case management processes.           The 2011 Hospital internal assessment
reflected opportunities to further strengthen the Hospital case management processes. As a result, the
following controls (2, 3 & 4 above) were enhanced and implemented during 2011, prior to the OIG
Medicare Compliance Review:

    1. 	 Secondary Physician Review - the Hospital established a standard process and policy in the fall
         of 2010 to manage and monitor the cases that are referred for Secondary Physician Review.
    2. 	 InterQual® Education - in addition to continuing mandatory education requirements, the
         Hospital developed comprehensive Inter-Rater-Reliability (IRR) review processes to include an
         assessment of each RN Case Manager performing InterQual® reviews. The focus of the IRR
         review process is to assess case management staffs' ability to apply the InterQual® criteria
         accurately and consistently. The Hospital Director of Case Management is responsible to follow­
         up with a corrective action plan, based on the review findings. Targeted case manager
         education is provided, with corrective action assigned.
    3. 	 Medical Necessity Report - the process for patient status determination was documented via a
         standard policy in the Fall of 2010. The report criteria was reviewed and updated in March


                                                                                                         2
                                                                                               Page 3 of 14


         2011, to further align the policy and process steps. The criteria is reviewed and updated
         annually, with the next release due March 2013.
    4. 	 Physician Education-Due to physician turnover and changing regulations, a process was
         instituted to educate new physicians on applicable requirements regarding patient status and
         CMS regulations.

A review of the five claims (5/80) found to be in error, as identified by the DIG Medicare Compliance
Review, reflected the following:

    1. 	 The historical documentation for one (1) of the cases reflected that the patient did not meet
        InterQuaPPI inpatient criteria admission review. This case was timely sent to secondary physician
        review and upheld; however, the patient was subsequently discharged, prior to any additional
        Condition Code 44 steps being taken. The case manager did not communicate this information
        to the Hospital's Billing Department.
    2. 	 The historical documentation for four (4) of the cases reflected that the patients met InterQual®
        inpatient criteria admission review; therefore, they were not sent for Secondary Physician
        review.   After analyzing the four (4) admission reviews, the error was determined to be
        attributable to case manager user error in applying the criteria at the time reviews were
        completed.


Based on the previously implemented process controls, the Hospital has determined the only remaining
corrective action is to review the findings of the DIG Medicare Compliance Review at the next Hospital
Utilization Management Committee, at the next Case Management Staff Meeting and with the Hospital
Physician Advisor. The Hospital Physician Advisor will follow-up with individual physicians, as needed.

Inpatient Transfers

OIG Findings and Recommendations:

Federal regulations (42 CFR § 412.4(c)) state that a discharge of a hospital inpatient is considered to be a
transfer when the patient's discharge is assigned to one of the qualifying DRGs and the discharge is to an
inpatient rehabilitation facility. A hospital that transfers an inpatient under the above circumstance is
paid a graduated per diem rate for each day of the patient's stay in that hospital, not to exceed the full
DRG payment that would have been paid if the patient had been discharged to another setting (42 CFR §
412.4(f)).

For 1 of the 14 sampled claims for inpatient transfers, the Hospital incorrectly billed Medicare for a
patient discharge that it should have billed as a transfer. For this claim, it should have coded the
discharge status as a transfer to an inpatient rehabilitation facility. Instead, it incorrectly coded the
discharge status as if the patient had left against medical advice; thus the Hospital should have received
the per diem payment instead of the full DRG. The Hospital stated that this incorrect billing occurred
because of human error. As a result of this error, the Hospital received an overpayment of $6,066.00.




                                                                                                          3
                                                                                                   Page 4 of 14


Hospital Response:

The Hospital maintains a policy requiring the completion of a post-acute services form that is completed
by the Hospital staff responsible for discharge planning. The Hospital Coding Department then uses this
form to assign the appropriate discharge disposition code. Additionally, the Hospital has system checks
and processes to stop and manually evaluate claims that are subject to the Same Day Readmission &
Three Day Payment Window Rules.

The Hospital, like many of its peers, maintains distinct medical records based on actual patient
encounters. When billing rules, such as the Same Day Readmission & Three Day Payment Window
Rules, dictate that a combined claim be submitted, the Hospital will continue to maintain separate
medical records for each encounter, each with its own distinct coding abstract. Any combining of claims
for billing purposes is done directly at the claim level by the Hospital's Billing Office.

The claim, identified by the DIG Compliance Review to be in error, was reviewed and is reflective of
services rendered to a patient that was admitted to the Hospital and, days later, left Against Medical
Advice (AMA). The patient subsequently returned to the Hospital on the same day (within an hour) and
was re-admitted.      The second admission resulted in the patient being discharged to a sub-acute
rehabilitation facility. Each of the admissions were coded with the appropriate Discharge Disposition
Codes;    however, when the two separate claims were manually combined, due to the Same Day
Readmission & Three Day Payment Window Rules, the claim reflected the AMA Discharge Disposition
Code (07) instead of reflecting the second/final           the sub-acute rehabilitation facility Discharge
Disposition Code( 62).

There is a control in place that requires the Hospital Health Information Management Department (HIM)
to review the two accounts to see if they should be combined. This includes checking to see if the
discharge disposition code needs to be changed. The Hospital provides a combined coding summary
sheet with correct ICD-9, DRG and disposition codes to the Billing Office. Keying is done directly from
this coding summary sheet, by the biller, at the time the claims are combined.          This final, manual step
failed to occur for this claim.

Additionally, it is our understanding that CMS has a safeguard in place via a Common Working File (CWF)
edit. The Hospital is notified by the FI/MAC that a claim conflict exists and is subject to the Post-acute
Care Transfer rule (40.2.4.C in the Medicare Claims Processing manual), in the event the Hospital is
either unaware of post-acute services or has made an error and billed incorrectly. In these cases, the
FI/MAC automatically cancels the initial claim and reprocesses with the appropriate discharge
disposition code, recouping any payment variance, with no action required by the Hospital. The Hospital
is unclear why the FI that was processing the Hospital's claims at that time (Wisconsin Physician
Services), did not identify this as an overpayment and reprocess this claim automatically.

Based on the previously implemented process controls, the Hospital has determined the only remaining
corrective action is to re-educate the billing staff regarding the manual process of combining claims.




                                                                                                             4
                                                                                             Page 5 of 14


Outpatient Claims with Payments Greater Than $25,000

OIG Findings and Recommendations:

10 claims sampled and reviewed. No errors identified. 


Hospital Response: 


Adequate controls in place. 




Inpatient Claims with Payments Greater Than $150,000 


OIG Findings and Recommendations: 


6 claims sampled and reviewed. No errors identified. 


Hospital Response: 


Adequate controls in place. 




Inpatient Hospital Acquired Conditions and Present on Admission Indicator Reporting

OIG Findings and Recommendations:

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or services
that "are not reasonable and necessary for the diagnosis or treatment of illness or injury or to improve
the functioning of a malformed body member."

For one of the five sampled claims for inpatient hospital-acquired conditions and present on admission
indicator reporting, the Hospital billed Medicare with an incorrect DRG code. The Hospital stated that
this error occurred because of human error. As a result of this error, the Hospital received an
overpayment of $3,398.

Hospital Response:

The Hospital notes that the error identified by the OIG Medicare Compliance Review was unrelated to
Hospital Acquired Conditions (HAC), therefore the Hospital will forego any discussion of the Hospital's
HAC controls. Instead, given that the OIG and the Hospital are in agreement that the error was the result
of an incorrect DRG assignment, the Hospital is providing coding key controls and corrective action
taken.

The Hospital coding compliance program is based on the "seven elements of an effective compliance
program" that was published in the OIG Compliance Program Guidance for Hospitals on February 23,
1998, together with the OIG Supplemental Compliance Program Guidance for Hospitals that was
published on January 31, 2005. The Hospital's policies, procedures and processes address each of the


                                                                                                       5
                                                                                                Page 6 of 14


seven elements, with specific focus on "Education and Training" and "Auditing and Monitoring." 

Policies, procedures and processes are reviewed annually and revised as needed. 

Newly hired coders receive six hours of coding compliance orientation training; part of this includes a 

review of the official coding guidelines involving the correct selection of principal and secondary
diagnoses. Once a coder satisfies all orientation requirements, he/she is then monitored for coding
quality.

In 2010, the Hospital replaced an external coding compliance software system with an internally
developed Coding Compliance rules software system that is significantly more sophisticated and better
meets the Hospital's rigorous compliance and general business needs. For example, the Hospital has
existing rules to identify accounts where the actual length of stay is less than the Medicare 25 th
percentile length of stay for the DRG assigned, identify accounts where a solitary MCC/CC has been
assigned, as well as many other rules to identify potential overpayments. Cases flagged for a potential
variance must be re-reviewed prior to billing. This process occurs daily.

On a quarterly basis, each coder's cumulative DRG change rate, based on the results of the Coding
Compliance rules software system record reviews, is reported to the Hospital Compliance Committee.
Coders not meeting established quality indicators are placed on a corrective action plan. On a semi­
annual basis, the Hospital conducts audits of Medicare inpatient and outpatient surgery cases. Our
policies and procedures prescribe specific follow up when quality standards are not achieved.

The Hospital also provides ample educational opportunities to the coders in the form of live workshops
and distance learning opportunities. At the conclusion of each semi-annual audit, the coders attend a
detailed exit conference, and all findings are reviewed in detail with the appropriate coder.

Finally, based on an article in the March 2008 Journal of AHIMA, "Collecting Root Cause to Improve
Coding Quality Measurement," the Hospital seeks to identify the root cause of each coding variance
identified, in an attempt to prevent the error from recurring. In the article, AHIMA identified five broad
categories that contribute to coding variance. For each of these areas, the Hospital identified positive
action steps that will mitigate risk and result in Effective Coding and Documentation.

For the case identified by the OIG Medicare Compliance Review, Alzheimer's was initially selected as the
principal diagnosis; however, a clarification was available in the medical record to rule out Alzheimer's.
This identified coding error was found to be coder oversight. After the OIG reviewed this case, the
Hospital agreed that the diagnosis of Alzheimer's was not supported and should not have been selected
as the principal diagnosis, which resulted in an incorrect DRG assignment.

Following all coding audits, the Hospital investigates every identified coding variance and uses the
results to communicate the positive action step(s) to be taken to improve coding effectiveness. Based
on a review of the root causes of the coding error on this identified account, the Hospital identified the
opportunities for improvement are "apply in-depth clinical knowledge insight/ully" and "review records
diligently." The findings were discussed with the coder, who expressed an understanding of the root
causes of the error and will be more diligent in following effective coding processes in the future.



                                                                                                         6
                                                                                               Page 7 of 14


The Hospital has an excellent coding accuracy overall, as measured by the Hospital's semi-annual coding
compliance audits. The Hospital calculates two rates on each audit:

    1. 	 The first is a DRG coding error rate, which is calculated as accounts with DRG errors divided by
         the number of accounts audited.
    2. 	 The second is a Net Financial Error Rate, which is calculated by dividing as the estimated
         overpayment dollar amount divided by total payments ofthe audited sample.

The most recent Hospital semi-annual coding audit was completed in December 2011. The audit
produced a DRG Coding Error Rate of 1.96%, with a Net Financial Error Rate of 0.00%; the lone DRG
error identified on the December 2011 coding audit was an underpayment that had passed timely filing.



Inpatient Claims Paid in Excess of Charges

OIG Findings and Recommendations:

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or services
that "are not reasonable and necessary for the diagnosis or treatment of illness or injury or to improve
the functioning of a malformed body member."

For 3 of the 20 sampled inpatient claims paid in excess of charges, the Hospital billed Medicare with
incorrect DRG codes. For one claim, the Hospital coded and billed for a procedure that was cancelled.
For the other two claims, the Hospital billed Medicare based on a DRG code that was supported by the
physician's written diagnosis in the patient's medical records. However, after further review, the
patient's clinical documentation did not support the physician's written diagnosis. These errors occurred
because of human error, and the Hospital's coders relied on the physician's written diagnosis within the
patient's medical records. As a result of these errors, the Hospital received overpayments totaling
$20,775.

Hospital Response:

The Hospital coding compliance program is based on the "seven elements of an effective compliance
program" that was published in the OIG Compliance Program Guidance for Hospitals on February 23,
1998, together with the OIG Supplemental Compliance Program Guidance for Hospitals that was
published on January 31, 2005. The Hospital's policies, procedures and processes address each of the
seven elements, with specific focus on "Education and Training" and "Auditing and Monitoring."

The Hospital's response in the section above, entitled Inpatient Hospital Acquired Conditions and
Present on Admission Indicator Reporting, details the extensive coding compliance program that the
Hospital has in place. In addition to the previously stated coding compliance program and coding key
controls, the Hospital has a policy that allows coders to code without waiting for a completed discharge
summary; however, the Hospital policy requires that the chart be re-reviewed by a coder once the
summary is available. Additionally, one of the Hospital's key billing controls is that the only way for the
Hospital Billing Office to change a DRG or add/delete a procedure on a claim is via an "HIM DRG Rebill
Log". This log is generated by the Hospital HIM Department and routed to the Billing Office for
processing.



                                                                                                         7
                                                                                                  Page 8 of 14


Following all coding audits, the Hospital investigates every identified coding variance to communicate
the positive action step(s) to be taken to improve coding effectiveness. Based on a review of the root
causes of the coding errors on these 3 identified accounts, the Hospital identified the opportunities for
improvements for Case 1 are "review record diligently" and "communicate collaboratively" and the
opportunity for improvement for Cases 2 and 3 is to "Document Reliably."

Case 1 of 3 involved the coding and billing of a procedure that was cancelled. At the time of the initial
review, the documentation was unclear as to whether the surgery was cancelled, but upon re-review
the Hospital Coding Department identified that the procedure had been cancelled. This was a coder
oversight that a more diligent review of the record would have prevented. Hospital staff identified the
error prior to the OIG Medicare Compliance Review, but failed to submit the required HIM DRG Rebill
Log to the Hospital Billing Office for correction and rebill. This was the result of a miscommunication
between the Hospital HIM Department and the Billing Office. The proper rebilling procedures were
reiterated to the entire Hospital coding team.

Both Case 2 and 3 were short stays with limited documentation. Case 2, from a coding perspective, the
coder was able to support a code for GI bleed based on the physician's entry of "Upper GI Bleed" in the
progress note. This case was coded correctly according to AHA/NCHS coding guidelines, as it was the
documented condition that appears to be the reason chiefly responsible for the admission. The patient
left AMA before the complete workup and additional documentation could be completed. The Hospital
Chief Medical Officer for this facility reviewed the case and believed that from a clinical perspective, the
patient likely did not have a GI bleed.

Case 3 is a similar situation. The physician clearly documented COPD, CHF and acute and chronic
respiratory failure. The ICD-9-CM Official Guidelines for Coding and Reporting, Section II. C. states that
when two or more diagnosis equally meet the criteria for principal diagnosis, either/any of the
diagnoses may be listed first. Additionally in the Guidelines, section III. C. states that the diagnoses still
to be ruled out may be coded as if they are confirmed. The physician documented "?CHF, ?COPD"
therefore the coder believed she was appropriate in selecting CHF as the principal diagnosis. However,
again when the Hospital Chief Medical Officer reviewed Case 3, he agreed that the patient did not have
CHF and was in agreement with acute and chronic respiratory failure as the principal diagnosis.

Both Case 2 and 3 are examples of physicians documenting an unreliable diagnosis.

In 2008, AHIMA issued a practice brief on physician queries and clinical documentation entitled
"Managing an Effective Query Process" (Journal of AHIMA 79, no.10 (October 2008): 83-88). In it they
stated:

          According to the Centers for Medicare and Medicaid Services and the Joint Commission,
          providers are expected to provide legible, complete, clear, consistent, precise, and reliable
          documentation of the patient's health history, present illness, and course of treatment. This
          includes observations, evidence of medical decision-making in determining a diagnosis, and
          treatment plan, as well as the outcomes of all tests, procedures, and treatments. This
          documentation should be as complete and specific as pOSSible, including information such as the

                                                                                                            8
                                                                                               Page 9 of 14


        level of severity, specificity of anatomical sites involved, and etiologies of symptoms. (emphasis
        added)

The AHIMA Query practice brief goes on to state that a query is appropriate when a coder believes that
the documentation fails to meet the criteria of legible, complete, clear, consistent and/or precise;
however, the guidelines are clear that a coder cannot make a determination as to whether a physician's
diagnostic statement is reliable or not. Additionally the brief states that a query is not appropriate in
this situation:

        Codes assigned to clinical data should be clearly and consistently supported by provider
        documentation. Providers often make clinical diagnoses that may not appear to be consistent
        with test results. For example, the provider may make a clinical determination that the patient
        has pneumonia when the results of the chest x-ray may be negative. Queries should not be
        used to question a provider's clinical judgment, but rather to clarify documentation when it
        fails to meet any of the five criteria listed above-legibility, completeness, clarity, consistency,
        or precision.

        A query may not be appropriate simply because the clinical information or clinical picture does
        not appear to support the documentation of a condition or procedure (e.g., documentation of
        acute respiratory failure in a patient whose laboratory findings do not appear to support this
        diagnosis). In situations where the provider's documented diagnosis does not appear to be
        supported by clinical findings, a healthcare entity's policies can provide guidance on a process
        for addressing the issue without querying the attending physician.

Based on the information available in the record at the time of coding and following Official coding
guidelines, the Hospital coders believed Case 2 and 3 were coded correctly and that all Hospital key
controls were being followed.     Coders do not have the clinical training to question a physician's
diagnostic statement.

We believe the primary course of action with respect to addressing unreliable documentation is to
continue to raise the coder's awareness about identifying unreliable documentation and establish a
more formal escalation process, which will be discussed below.

To summarize, we do not believe these are coding errors but more specifically improvement
opportunities regarding physician documentation.

Based on this OIG Medicare Compliance Review and an article in the January 2012 Briefings on Coding
Compliance Strategies entitled, "Scrutinize Documentation in 2012 and Beyond" it is evident that our
coding controls and processes to validate the DRG assigned do not necessarily validate that the clinical
documentation is reliable.

CMS stated in the updated RAC Statement of Work released September 1, 2011:




                                                                                                         9
                                                                                               Page 10 of 14


        "Clinical validation is beyond the scope of DRG (coding) validation, and the skills of a certified
        coder. This type of review can only be performed by a clinician or may be performed by a
        clinician with approved coding credentials."

The Hospital plans to educate all coders on this important issue at our upcoming live workshops. The
Hospital's coding professionals will be instructed to consider the following questions, consistent with
their coding skills, as stated by the January 2012 article:

    • 	 "Does documentation support the diagnosis? For example, does documentation clearly include
        the patient's status, responsiveness to treatment over time or any relevant laboratory results
        that help establish the validity of the diagnoses?
    • 	 Is the diagnosis mentioned more than once?
    • 	 Does nursing documentation support physician documentation of the diagnoses?"

For accounts that may not meet these criteria, Hospital coders will be instructed to escalate the case to
a clinician, prior to releasing the claim. This may include a referral to a non-physician clinician such as a
case manager, or a physician; such as a physician advisor or the chief of the medical staff. The coder
may always refer a case to his/her designated Coding Compliance Director who may confer with the
applicable Chief Medical Officer. Additionally, the Chief Medical Officer for this facility will develop an
education session, targeted at this facility's physicians, with a focus on the reliability of documentation.

Finally, the Hospital will add a rule to the Hospital Coding Compliance software system to flag all
Medicare inpatient accounts, where the expected DRG payment is in excess of charges, for a secondary
review. The Coding Department will validate the coding and documentation of these flagged accounts,
prior to billing.



Inpatient Claims with High Severity Level Diagnosis -Related Group Codes (MCC/CC)

OIG Findings and Recommendations:

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or services
that "are not reasonable and necessary for the diagnosis or treatment of illness or injury or to improve
the functioning of a malformed body member."

For 4 of the 40 sampled inpatient claims billed with high severity level diagnosis-related group codes,
the Hospital billed Medicare with incorrect DRG codes. For one claim, the coder coded a particular
diagnosis that was later ruled out upon discharge. For the other three claims, the Hospital billed
Medicare based on a DRG code that was supported by the physician's written diagnosis in the patient's
medical records. However, after further review, the patient's clinical documentation did not support the
physician's documented diagnosis. These errors occurred because the coder did not re-review the
patient's account when the discharge summary became available, and the coder relied on the
physician's written diagnosis within the patient's medical records. As a result, the Hospital received
overpayments totaling $53,775.

Hospital Response:



                                                                                                          10
                                                                                              Page 11 of 14


As previously stated above, the Hospital coding compliance program is based on the "seven elements of
an effective compliance program" that was published in the OIG Compliance Program Guidance for
Hospitals on February 23, 1998, together with the OIG Supplemental Compliance Program Guidance for
Hospitals that was published on January 31, 2005. The Hospital's policies, procedures and processes
address each of the seven elements, with specific focus on "Education and Training" and "Auditing and
Monitoring."

The Hospital's response, in the sections above, entitled Inpatient Hospital Acquired Conditions and
Present on Admission Indicator Reporting and Inpatient Claims Paid in Excess of Charges details the
extensive coding compliance program that the Hospital has in place.

Following all coding audits, the Hospital investigates every identified coding variance to communicate
the positive action step(s) to be taken to improve coding effectiveness. Based on a review of the root
causes of the coding errors for these 4 identified accounts, the Hospital identified the opportunities for
improvements for Case 1 are to liRe-review Discharge Summary Thoroughly" and the opportunity for
improvement for Cases 2, 3 and 4 is to "Document Reliably."

For Case 1, the coder coded pneumonia based on information available at the time of coding. The
Hospital policy allows coders to code the account prior to the discharge summary being available.
However, the policy requires that the account must be re-reviewed when the discharge summary
becomes available. The Hospital has a procedure that outlines the steps required to ensure compliance.
The HIM Director has reiterated the requirements for discharge summary review and the importance of
doing so with each Hospital coder. The Hospital performs audits for evidence of adherence to the
Discharge Summary Re-routing procedure during the semi-annual coding audits.

For Case 2, 3 and 4, the physicians documented "acute renal failure" and the coders believed they were
appropriate in concluding that acute renal failure was an established diagnosis and appropriate to
report. However, when the Hospital Chief Medical Officer reviewed the three cases, he agreed that
these patients did not have acute renal failure. These are examples of physiCians documenting an
unreliable diagnosis.

The ICD-9-CM Official Guidelines for Coding and Reporting, Section III state the following:

        The UHDDS item #l1-b defines Other Diagnoses as "all conditions that coexist at the time of
        admiSSion, that develop subsequently, or that affect the treatment received and/or the length
        of stay. Diagnoses that relate to an earlier episode which have no bearing on the current
        hospital stay are to be excluded."

In addition, the AHIMA issued a practice brief on physician queries and clinical documentation entitled
"Managing an Effective Query Process" (Journal of AHIMA 79, nO.10 (October 2008): 83-88) in 2008.
Excerpts from the brief were detailed in the Hospital's response in the section above, entitled Inpatient
Claims Paid in Excess of Charges and the excerpts are applicable to these cases, as well.

Based on the information available in the record at the time of coding and following AHA/NCHS Official
coding guidelines, the coders believed they had coded the cases correctly and that all Hospital key


                                                                                                       11
                                                                                               Page 12 of 14


controls were being followed.      Coders do not have the clinical training to question a physician's
diagnostic statement.

We believe the primary course of action with respect to addressing unreliable documentation is to
continue to raise coders' awareness about identifying unreliable documentation and establish a more
formal escalation process.

Based on this OIG Medicare Compliance Review and an article in the January 2012 Briefings on Coding
Compliance Strategies entitled, "Scrutinize Documentation in 2012 and Beyond" it is evident that our
controls and processes in the Coding Department to validate the DRG assigned do not necessarily
validate that the clinical documentation is reliable.

CMS stated in the updated RAC Statement of Work released September 1, 2011:

        "Clinical validation is beyond the scope of DRG (coding) validation, and the skills of a certified
        coder. This type of review can only be performed by a clinician or may be performed by a
        clinician with approved coding credentials."

The Hospital plans to educate all Hospital coders on this important issue at our upcoming live workshops
in May/June 2012. The Hospital's coding professionals will be instructed to consider the following
questions, consistent with their coding skills, as stated by the January 2012 article:

    • 	 "Does documentation support the diagnosis? For example, does documentation clearly include
        the patient's status, responsiveness to treatment over time or any relevant laboratory results
        that help establish the validity of the diagnoses?
    • 	 Is the diagnosis mentioned more than once?
    • 	 Does nursing documentation support physician documentation of the diagnoses?"

For accounts that may not meet these criteria, Hospital coders will be instructed to escalate the case to
a clinician, prior to releasing the claim. This may include a referral to a non-physician clinician such as a
case manager, or a physician such as a Physician Advisor or the Chief of the Medical Staff. The coder
may always refer a case to his/her designated Coding Compliance Director who may confer with the
Hospital Chief Medical Officer.     In addition, the Hospital has provided education in the Hospital's
monthly physician newsletter, focused on the appropriate documentation of acute renal failure.




Inpatient Psychiatric Facility Interrupted Stays

OIG Findings and Recommendations:

4 claims sampled and reviewed. No errors identified.

Hospital Response:

Adequate controls in place.


                                                                                                          12
                                                                                              Page 13 of 14




Outpatient Surgeries Billed with Units Greater than One

OIG Findings and Recommendations:

The Manual, chapter 1, section 80.3.2.2, states: tlln order to be processed correctly and promptly, a bill
must be completed accurately." In addition, chapter 4, section 20.4, of the Manual states:          tiThe
definition of service units... is the number of times the service or procedure being reported was
performed."

For the only sampled outpatient claim for outpatient surgeries with billed units greater than one, the
Hospital submitted the claim to Medicare with an incorrect number of surgical units of service
performed. The Hospital stated that the incorrect units were billed due to human error. As a result of
this error, the Hospital received an overpayment totaling $767.

Hospital Response:

The Hospital's patient accounting system has automated programming that is in place that converts the
surgical charged units of service to a surgical unit of til". In May 2010, prior to the OIG Medicare
Review, it was determined that this key control was safeguarding claims that required no other manual
review or correction to claims. In the event that a manual correction was needed on a claim, it was
expected that all corrections would be performed manually by the biller. An internal assessment of our
processes identified an opportunity to further enhance our clean claim edit process that would further
ensure appropriate payment. Effective May 2010, a second safeguard was implemented within our
billing editor software that suspends all claims with surgical units greater than til" and returns the claim
to the biller for re-review. These accounts are then clinically reviewed to ensure that the units billed are
reflected appropriately on the claim, prior to submission.

The claim identified by the OIG to be in error, reflects a date of service of February 2009 and was
returned for review of two edits. First, the claim was manually reviewed for the correct surgical date
and then should have been manually reviewed for multiple surgical units. The surgical date was
corrected and the claim was inadvertently "cleared tl for billing, without review of the multiple surgical
units. Once cleared, the claim was loaded to the billing editor software system and released for claim
submission. This incorrect claim submission was due to a manual biller error. If this claim were to
present today, the initial patient accounting safeguard would stop the claim for manual review and in
the event that the manual correction of surgical units greater than til" was overlooked, the claim would
stop again in the claim editor software and be returned to the biller to correct.

Based on these previously enhanced and now established controls, the Hospital believes that no
additional corrective action is indicated.




Inpatient Psychiatric Facility Emergency Department Adjustments


                                                                                                         13
                                                                                       Page 14 of 14



OIG Findings and Recommendations:

1 claim sampled and reviewed. No error identified.

Hospital Response:

Adequate controls in place.



Outpatient Manufacture Credits for Medical Devices

OIG Findings and Recommendations:

7 claims sampled and reviewed. No errors identified.

Hospital Response:

Adequate controls in place.




The OIG and the Hospital have agreed that the OIG will reprocess the 14 incorrectly billed inpatient
claims and 1 incorrectly billed outpatient claim, which will result in a recoupment of the identified
overpayment of $124,566.00.

Again, thank you for the opportunity to respond to the OIG Medicare Compliance Review findings and
we appreciate the professionalism demonstrated by the OIG audit team throughout this process.

Please do not hesitate to contact me if you have any further questions or require any additional
information.

Sincerely,

1c{~'           J f c.f'-~-
Melissa L. Paper, JD, MPA, CHC
Hospital Compliance and Privacy Officer
Palmetto General Hospital




                                                                                                  14
